                                             UNCLASSIFIED

                                    United States Department of State

                                  and the Broadcasting Board of Governors

                                       Ofﬁce of Inspector General

Ofﬁ ce of Inspector General


                                            Ofﬁce of Audit




                                  Report on the External Quality 

                               Control Review of the Federal Deposit 

                                Insurance Corporation’s Inspector

                                   General Audit Organization





                                          UNCLASSIFIED

                                      UNCLASSIFIED




                                   INTRODUCTION
                                   INTRODUCTION




      The Department of State, Ofﬁce of Inspector General (DOS OIG), Ofﬁce of
 Audits reviewed the system of quality control for the audit function of the Federal
 Deposit Insurance Corporation, Ofﬁce of Inspector General (FDIC OIG) in effect
 for the year ended March 31, 2007. A system of quality control encompasses the or
 ganizational structure and the policies adopted and procedures established to provide
 an OIG with reasonable assurance of conforming with generally accepted govern
 ment auditing standards (GAGAS). The elements of quality control are described
 in Government Auditing Standards 2003 Revision, promulgated by the Comptroller
 General of the United States. The design of the system, and compliance with it in
 all material respects, are the responsibility of the FDIC OIG. DOS OIG’s objec
 tive was to determine whether the internal quality control system was adequate as
 designed and complied with to provide reasonable assurance that applicable auditing
 standards, policies, and procedures were met. DOS OIG’s responsibility was to ex
 press an opinion on the design of and the FDIC OIG’s compliance with the system
 based on this review.

      The review was conducted in accordance with the guidelines established by the
 President’s Council on Integrity and Efﬁciency and the Executive Council on Integ
 rity and Efﬁciency. In performing the review, DOS OIG obtained an understanding
 of the system of quality control for the FDIC OIG. In addition, DOS OIG tested
 compliance with the FDIC OIG’s quality control policies and procedures to the
 extent considered appropriate. These tests included the application of the FDIC
 OIG’s policies and procedures on selected audits. Because this review was based on
 selective tests, it would not necessarily disclose all weaknesses in the system of qual
 ity control or all instances of lack of compliance with it. Nevertheless, DOS OIG
 believes that the procedures it performed provide a reasonable basis for its opinion.

      Because there are inherent limitations in the effectiveness of any system of qual
 ity control, departures from the system may occur and not be detected. Also, projec
 tion of any evaluation of a system of quality control to future periods is subject to
 risk that the system of quality control may become inadequate because of changes in
 conditions or because the degree of compliance with the policies or procedures may
 deteriorate.

     In DOS OIG’s opinion, the system of quality control for the audit function of
 the FDIC OIG in effect for the year ended March 31, 2007, was designed to meet

Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007   1


                                      UNCLASSIFIED 
                                   UNCLASSIFIED 



     the requirements of the quality control standards established by the Comptroller
     General for a federal government audit organization. In addition, the system of
     quality control was complied with during the period reviewed to provide FDIC OIG
     with reasonable assurance of conforming with applicable auditing standards, policies,
     and procedures.

         From its review, DOS OIG has the following ﬁndings and recommendations
     that should improve the FDIC OIG’s compliance with GAGAS and its internal audit
     policies and procedures. These ﬁndings are not of sufﬁcient signiﬁcance to affect
     the DOS OIG’s overall unmodiﬁed opinion. However, FDIC OIG needs to con
     tinue its diligence to maintain an effective quality control system. Implementing the
     recommendations would improve the quality control system and help to maintain an
     unmodiﬁed opinion. These matters are discussed in the ﬁndings and recommenda
     tions that follow.

        The background, scope, and methodology for this review can be found in Ap
     pendix A; general comments regarding FDIC OIG are in Appendix B; and FDIC
     OIG’s comments are in Appendix C.




2   Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007


                                   UNCLASSIFIED 
                                      UNCLASSIFIED




                  FINDINGS AND RECOMMENDATIONS




 POLICIES AND PROCEDURES

     DOS OIG reviewed the FDIC OIG’s Ofﬁce of Audits (OA) policies and pro
 cedures and found that they were generally adequate for ensuring compliance with
 GAGAS. This work entailed a comprehensive review of the policies and procedures
 in such areas as professional judgment, competence, audit planning, supervision,
 evidence and audit documentation, the ﬁnal report, and the quality control process.
 DOS OIG’s review disclosed that the policies and procedures pertaining to personal
 and external impairments to independence should be strengthened.

     GAGAS 3.49 and 3.50 require audit organizations to have policies and proce
 dures that establish internal guidance for audits and attestation engagements. OA’s
 Ofﬁce of the Assistant Inspector General for Audits (AIGA) is responsible for
 developing policies and procedures to ensure that audit engagements comply with
 GAGAS. The policies and procedures pertaining to the general standard of inde
 pendence include the FDIC OIG’s Policies and Procedures Manual and other ad
 visories and administrative notices in effect during the scope of this review. These
 policies and procedures, however, need strengthening with respect to personal and
 external impairments to independence.

 Personal Impairments to Independence

      The Policies and Procedures Manual requires the immediate notiﬁcation of the
 supervisor in the event of a personal impairment to independence, but this guidance
 is incomplete. The manual lacks guidance on the supervisor’s speciﬁc duties to re
 port and resolve personal impairments as well as the repercussions to staff for failure
 to report such impairments.

     The personal impairment of staff members, per GAGAS 3.07, results from rela
 tionships and beliefs that might cause auditors to limit the extent of the inquiry, limit
 disclosure, or weaken or slant audit ﬁndings in any way. Although the Policies and
 Procedures Manual requires all staff members to immediately notify their supervi
 sor if they have any personal impairments to independence, it does not specify how
 supervisors are to report and resolve impairments. GAGAS 3.07 and 3.09 require


Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007   3


                                      UNCLASSIFIED 
                                   UNCLASSIFIED 



     audit organizations to maintain independence and resolve personal impairments
     promptly; however, the lack of speciﬁc OA guidance hampers such efforts. Al
     though no personal impairments were identiﬁed during the review, improved guid
     ance for reporting and resolving personal impairments if they occur is needed to
     preclude any possible adverse impact on independence.

         Additionally, the Policies and Procedures Manual states that “failure to properly
     disclose impairments to independence during an assignment can lead to disciplin
     ary actions.” The OA also has mechanisms to ensure that its staff is aware of these
     responsibilities. The manual, however, does not elaborate on this disciplinary mecha
     nism and the actions that could be taken against staff members who fail to report
     a personal impairment. Although this review did not identify any personal impair
     ments, guidance is needed to strengthen OA policies and procedures.

     External Impairments to Independence

        The Policies and Procedures Manual guidance on external impairments to inde
     pendence is incomplete. OA only recently addressed the topic, and the manual still
     does not delineate how staff should report and resolve an external impairment.

         External impairments, according to GAGAS 3.19, occur when auditors are
     deterred from acting objectively and exercising professional skepticism by pressures,
     actual or perceived, from management and employees of the audited entity or over
     sight organizations. Additionally, GAGAS 3.20 states that an audit organization’s
     internal quality control system “should include internal policies and procedures for
     reporting and resolving external impairments.”

          However, the Policies and Procedures Manual guidance on external impairments
     is incomplete. In fact, external impairments were not addressed at all until the 2006
     revision of the guidance for policies 300.1 4a (1) (d) and 300.1 5 (b) and (c). Policy
     300.1 4a (1) (d) addresses identifying external impairments, but only for reporting
     and resolving such impairments that are a result of denial of access to information.
     Policies 300.1 5 (b) and (c) state that directors and associate directors are to report
     any external impairments – not only those that are a result of denial of access to
     information – to the AIGA, and the AIGA is to report external impairments to the
     Inspector General and the deputy inspector general. The policies do not include
     guidance to the staff for reporting or resolving external impairments. No exter
     nal impairments were identiﬁed during the review; however, additional guidance is
     needed to ensure that staff is aware of how to report and resolve external impair
     ments that could adversely affect an auditor’s independence.



4   Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007


                                   UNCLASSIFIED 
                                      UNCLASSIFIED




    Recommendation 1: The FDIC Inspector General should require the as
    sistant inspector general for audits to ensure that the Policies and Procedures
    Manual contains adequate guidance on (a) reporting and resolving personal im
    pairments, (b) identifying the disciplinary mechanism and actions that could be
    taken if personal impairments are not reported, and (c) reporting and resolving
    external impairments.


     In its comments to the draft report, FDIC OIG ofﬁcials said that they will add
 the recommended guidance to the Policies and Procedures Manual to reﬂect the Gov
 ernment Auditing Standards July 2007 revision. FDIC OIG anticipates the corrective
 action will be completed by February 29, 2008.



 REQUIRED WORKING PAPER DOCUMENTATION
     DOS OIG performed a review of ﬁve randomly selected audits conducted by
 FDIC OIG and found that working paper documentation was generally adequate
 and in conformance with GAGAS and the Policies and Procedures Manual. This
 extensive and detailed review covered various stages of the audit process, including
 planning and implementation.

      For example, speciﬁc areas of planning that DOS OIG reviewed included
 whether the audit plan deﬁned the objectives of the audit, provided for the collec
 tion and analysis of sufﬁcient background data, provided for the identiﬁcation and
 testing of compliance with legal and regulatory requirements, and provided for an as
 sessment of internal controls. Implementation areas of review included whether the
 audit documentation adequately supported the universe, sampling plan, and sampling
 criteria; the auditors obtained evidence about the reliability of the data used from
 computer-based systems, if data were signiﬁcant to the audit ﬁndings; the auditors
 performed sufﬁcient tests to determine the adequacy of the auditee’s internal control
 system; and the auditors adequately tested for violations and noncompliance with
 legal and regulatory requirements, if signiﬁcant to the audit objective.

     DOS OIG concluded that the above and other areas were adequate for ensuring
 compliance with GAGAS. However, this review did disclose some areas in need of
 improvement; namely, approving, indexing, and updating the audit plan; complet
 ing the statement of non-conﬂict of interest; completing the statement of purpose,
 source, scope, and conclusion (PSSC); and completing the required checklists and
 certiﬁcations. Compliance with the appropriate sections of GAGAS and the Policies
 and Procedures Manual will remedy these problems.

Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007   5


                                      UNCLASSIFIED 
                                    UNCLASSIFIED 



     Audit Plan

        This review found some problems with the audit plan. Areas in need of im
     provement included approving, indexing, and updating the plan.

         The Policies and Procedures Manual states that the audit plan should be ap
     proved by the directors in OA and documented in the assignment working papers
     before the start of ﬁeldwork. The policy also requires that the audit steps be indexed
     to the supporting assignment documentation and the program modiﬁed if major
     changes occur in the scope.

         For three of the ﬁve audits sampled, the audit plan needed improvement in these
     areas. For all three of these audits, the audit plan was approved after the ﬁeldwork
     start date, the program was not indexed to the supporting documentation inTeam-
     Mate, and the audit steps were not signed off by the audit staff as completed.1
     Additionally, there was an instance where the audit plan was not updated to include
     additional work performed.

     Statement of Non-Conﬂict of Interest

         FDIC requires all audit staff to certify each year that they understand GAGAS
     requirements and FDIC policies and procedures regarding independence. However,
     documentation on whether staff had any personal impairments to independence was
     not always provided in the working papers by all staff assigned to audits, as required
     by the Policies and Procedures Manual.

         Per policy 320.2, the statement of non-conﬂict of interest is to be completed by
     the cognizant OA director, deputy assistant inspector general for audits (DAIGA),
     AIGA, team members, and other staff having input into the assignment before the
     start of work to indicate their independence regarding the speciﬁc assignment. The
     chapter also directs that the statement signed by all team members be maintained in
     the assignment documentation.

          However, the statement of non-conﬂict of interest was not signed by all au
     dit team members for three of the ﬁve audits sampled. Moreover, the statements
     for two of these three audits were signed by some of the team members after the
     ﬁeldwork began, despite the assignment of these individuals to the audits before the
     commencement of this work.


     1   TeamMate is a software package used for preparing and maintaining audit documentation.



6   Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007


                                    UNCLASSIFIED 
                                      UNCLASSIFIED 



 Statement of Purpose, Source, Scope, and Conclusion

     This review identiﬁed problems with inadequate or missing working paper docu
 mentation for the statement of PSSC, as required by the Policies and Procedures
 Manual. More speciﬁcally, a review of the ﬁve audits sampled disclosed that two of
 them had rates of inadequate or missing working paper documentation for PSSC of
 96 percent and 19 percent, as shown in Table 1. Although the rates for this deﬁcien
 cy were nine percent or less for the other three audits, these important requirements
 of GAGAS and the Policies and Procedures Manual need to be consistently followed
 for all audits.
         Table 1: Statement of Purpose, Source, Scope, and Conclusion
                Number of          Number of        Percentage of Working
                  Working        Working Papers     Papers With Deﬁcient
    Report         Papers        With Deﬁcient          PSSC Elements
    Number       Reviewed        PSSC Elements
    06-015          113                108                   96%
    06-016           22                 2                     9%
    06-023          213                 0                      0
    06-026          290                 6                     2%
    07-007           43                 8                    19%
                  Source: DOS OIG review of FDIC OIG documentation.


     GAGAS 7.68 states, “Audit documentation should be appropriately detailed to
 provide a clear understanding of its purpose and source and the conclusions the
 auditors reached.” In addition, policy 320.6 requires that “each document prepared
 must contain the following elements: objective/purpose/step, source, scope, meth
 odology/work performed, results/discussion, and conclusion of the work per
 formed to provide a clear understanding of the document’s purpose and source and
 the conclusions reached, as well as evidence of supervisory review.”

      Moreover, the issue of deﬁcient or missing PSSC elements on each document is
 apparently a recurring problem. An April 2007 FDIC OIG quality control review
 also identiﬁed this issue and observed that “confusion continues regarding whether
 every assignment document must contain the PSSC or whether assignment docu
 ments may be indexed to the PSSC of the Procedure Summary.” The confusion was
 attributed to Appendix B of the Policies and Procedures Manual, Policy 320.6, which
 states that “Basic assignment documentation should contain, where appropriate, the
 following elements . . ..” In its response to FDIC OIG’s quality control review, OA
 replied that the policies and procedures would be revised to correct the inconsisten-



Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007   7


                                      UNCLASSIFIED 
                                   UNCLASSIFIED




     cy, and staff would be advised of the correct interpretation of the provisions. This
     change is to be included in FDIC OIG’s February 29, 2008, revision to its Policies
     and Procedures Manual.

     Required Checklists and Certiﬁcations

          The documentation pertaining to the checklists and certiﬁcations required to be
     completed for all ﬁve audits was deﬁcient. This review disclosed various problems
     with these documents, such as completion of the form in an untimely manner or
     failure to ﬁll out the form at all. More speciﬁcally, DOS OIG reviewed ﬁve differ
     ent checklists and certiﬁcations, listed in Table 2, for the ﬁve audits in the sample
     and found problems with these documents in nine instances out of 25 (36 percent).
     Moreover, in four of these nine instances, the form was not completed at all. (The
     16 instances without deﬁciencies are designated in the table below by checkmarks.)


     Table 2: Required Checklists and Certiﬁcations
                                 Report         Report                     Report       Report          Report
           Checklist or         Number         Number                      Number       Number          Number
           Certiﬁcation          06-015         06-016                     06-023       06-026          07-007
       Referencing Checklist         Not ﬁlled out       Not ﬁlled out        9             9            9 
           Supervisory                Completed           Completed                     Not ﬁlled
           Assignment                32 days after       10 days after
          Documentation               ﬁnal report         ﬁnal report         9           out
                                                                                                         9 
            Checklist                  issuance            issuance
         Auditor-in-Charge            Completed
                                                          Not indexed
           Assignment                26 days after                                      Not ﬁlled
          Documentation               ﬁnal report
                                                            to audit          9           out            9 
                                                         documentation
            Checklist                  issuance
           Independent
        Referencing Quality               9                   9               9             9            9 
        Review Certiﬁcation
      The GAGAS and OIG
      Policies and Procedures                             Director did
            Certiﬁcation                  9                not sign           9             9            9 
            Statements
     Source: DOS OIG review of FDIC OIG documentation.


         OA uses several checklists and certiﬁcations to assist in the review of audit as
     signments and reports and to help ensure that applicable GAGAS standards are met.


8   Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007


                                   UNCLASSIFIED 
                                      UNCLASSIFIED




 The ﬁve listed in Table 2 are among the more salient. For example, the Auditor-in-
 Charge Assignment Documentation Checklist, per the Policies and Procedures Man
 ual, is “designed to assist the Auditor-in-Charge in assignment planning, supervision,
 legal and regulatory requirements, management and information system controls,
 sampling, assignment documentation structure, and cross-indexing and referencing.”
 This checklist and the others are valuable tools, but their value is diminished when
 they are not completed in a timely manner or at all.

    Recommendation 2: The FDIC Inspector General should require the assis
    tant inspector general for audits to reiterate the necessity of preparing complete
    and timely working papers in conformance with the Policies and Procedures
    Manual. This reiteration should place special emphasis on required working pa
    pers for the audit plan; the statement of non-conﬂict of interest; the statement
    of purpose, source, scope, and conclusion; and the required audit checklists and
    certiﬁcations.


     In its comments to the draft report, FDIC OIG said that it will reiterate to the
 OA staff the importance of maintaining high-quality audit documentation with em
 phasis on the speciﬁed quality control elements. In addition, FDIC OIG anticipates
 consolidating a number of checklists and certiﬁcations. FDIC OIG anticipates the
 corrective action will be completed by February 29, 2008.



 SUPERVISION OF AUDIT STAFF
      OA generally complied with GAGAS in ensuring that auditors and others receive
 appropriate guidance and effective supervision during the audit. GAGAS 7.44 states
 that “staff are to be properly supervised.” According to GAGAS 7.45, “supervision
 involves directing the efforts of staff assigned to the audit to ensure that the audit
 objectives are accomplished.” Elements of supervision include providing sufﬁcient
 guidance to staff members, reviewing the work performed, and providing effective
 on-the-job training. Although there was evidence of these elements throughout the
 audit process for all projects reviewed, FDIC OIG needs to improve the timeliness
 of supervisory review of working papers, especially of coaching notes, to ensure that
 it achieves audit objectives, maintains audit quality, and fosters on-the-job training.




Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007   9


                                      UNCLASSIFIED 
                                    UNCLASSIFIED 



      Supervisory Review of Audit Working Papers

          OA needs to stress the importance of the timeliness of supervisory review of
      audit working papers. A review of the ﬁve audits sampled disclosed that the work
      ing papers for one of the audits was reviewed late 41 percent of the time. In all ﬁve
      audits, improvements in the timeliness of supervisory review (deﬁned by DOS OIG
      as within 30 days) could be made, as shown in Table 3.
                       Table 3: Supervisory Review of Audit Working Papers
                         Number of          Number of         Percentage of
                          Working        Working Papers      Working Papers
          Report            Papers      Reviewed After 30 Reviewed After 30
          Number          Reviewed            days                days
          06-015               75              31                 41%
          06-016              217              22                 10%
          06-023               44               7                 16%
          06-026              494              61                 12%
          07-007              558              68                 12%
                       Source: DOS OIG review of FDIC OIG documentation.


          DOS OIG used 30 days as a threshold to determine untimely supervisory review
      of audit working papers because FDIC OIG has not established a criterion. DOS
      OIG uses this threshold for its own internal quality control reviews. Irrespective of
      whether 30 days is the most appropriate measure, DOS OIG urges FDIC OIG to
      establish some speciﬁc measurement in order to objectively determine the timeliness
      of supervisory review of working papers.

           In addition to aiding the efﬁcient attainment of assignment objectives and gener
      ally improving audit quality, timely review of working papers by supervisors is es
      sential to providing meaningful on-the-job training – an element of supervision per
      GAGAS. Untimely supervisory review of working papers can impact audit quality
      and staff development.

      Supervisory Follow-up of Coaching Notes

          Supervisory follow-up of coaching notes also needs improvement.2 For three
      of the ﬁve audits sampled, the rate of untimely follow-up (deﬁned by DOS OIG as
      exceeding 30 days) for supervisors to clear coaching notes after the staff provided
      2 During the course of audit ﬁeldwork, questions may be asked or review comments written.
      TeamMate refers to such comments as coaching notes.



10   Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007


                                    UNCLASSIFIED 
                                      UNCLASSIFIED




 responses was 19 percent or higher, as indicated in Table 4. Again, both audit quality
 and on-the-job training can suffer when supervision is untimely.

      Additionally, untimely response by staff to coaching notes is a problem. For
 three of the ﬁve audits sampled, the percentage of notes responded to by staff after
 30 days was 21 percent or higher, as shown in Table 4. Although GAGAS does
 not speciﬁcally address untimely responding by staff to coaching notes, DOS OIG
 believes that it is a cause for concern, especially in light of GAGAS 7.46. This sec
 tion states that “supervisors should satisfy themselves that staff members clearly
 understand what work they are to do, why the work is to be conducted, and what the
 work is expected to accomplish.” Timely supervisory follow-up on coaching notes
 is important because it can clear up issues at the early stage of an assignment before
 audit quality is adversely impacted.


 Table 4: Response and Clearing of Supervisory Coaching Notes to Staff
                                                                       Number              Percentage
                                                     Percentage       Cleared by             Notes
                    Number                           Responded        Supervisors          Cleared by
         Number Responded to                         to by Staff     After 30 Days         Supervisors
  Report of Notes by Staff After                      After 30      From Response           After 30
  Number Reviewed    30 Days                            Days            by Staff              Days
   06-015           22               2                  9%                 5                   23%
   06-016           15               5                  33%                  9                 60%
   06-023           39               8                  21%                  0                      0
   06-026           44               24                 55%                 22                 50%
   07-007           68               9                  13%                  9                 13%
 Source: DOS OIG review of FDIC OIG documentation.


    Recommendation 3: The FDIC Inspector General should require the assis
    tant inspector general for audits to emphasize the importance of timeliness of
    supervisory review of working papers, staff response to supervisory comments
    on working papers, and the clearance of coaching notes. Consideration should
    be given to establishing a speciﬁc measurement for working paper review and
    for clearing coaching notes.


     FDIC OIG concurred with the recommendation and said it will emphasize to
 OA staff the importance of timely supervisory and staff actions regarding work
 ing papers. In addition, the FDIC OIG’s Inspector General has asked the assistant


Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007       11


                                      UNCLASSIFIED 
                                    UNCLASSIFIED




      inspector general for audits to recommend speciﬁc timeliness measures. FDIC OIG
      anticipates the corrective action will be completed by February 29, 2008.



      CONTINUING PROFESSIONAL EDUCATION DOCUMENTATION
          DOS OIG found that OA generally did not maintain adequate documentation
      supporting the Continuing Professional Education (CPE) hours completed by staff
      subject to the CPE requirements, as required by GAGAS as well as OA’s own inter
      nal guidance.

          GAGAS 3.45 requires auditors performing work under GAGAS to complete
      every two years, at least 80 hours of CPE, with at least 20 of the 80 hours completed
      in any one year of the two-year period. Moreover, Government Auditing Standards:
      Guidance on GAGAS Requirements for Continuing Professional Education states that the
      audit organization is responsible for maintaining documentation of the CPE hours
      completed by each auditor subject to the CPE requirements. If the audit organiza
      tion elects to delegate the responsibility to the auditor for maintaining the above
      documentation, then the audit organization should have adequate procedures in
      place to ensure that its records of CPE hours earned by auditors are supported by
      the documentation maintained by auditors. Furthermore, all CPE records should be
      maintained for an appropriate period of time to satisfy any legal and administrative
      requirements, including peer review.

          Policy 120.1 states that audit and audit-related staff are required to maintain
      individual training records that document completion of CPE hours to the satisfac
      tion of an external reviewer. Such evidence of completion includes grade reports,
      completion certiﬁcates, course outlines, and agendas. Despite this policy, staff did
      not adequately maintain individual training records. FDIC OIG’s Training and Pro
      fessional Development System database shows that each of the employees selected
      in DOS OIG’s sample amassed at least 80 CPE hours, per the GAGAS requirement.
      However, the maintenance of individual training records by staff was inadequate. A
      random sample from the universe of the 53 individuals subject to the CPE require
      ment disclosed that eight of 11 (73 percent) did not have adequate documentation
      to support all their CPE hours recorded in FDIC OIG’s Training and Professional
      Development System.

          This problem was also identiﬁed during a June 2006 FDIC OIG quality control
      review. In response, FDIC OIG issued Ofﬁce of Audits Administrative Proce
      dures #6, dated August 2006, on continuing professional education. In addition
      to providing guidance to staff on implementing the CPE requirement, it instituted

12   Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007


                                    UNCLASSIFIED 
                                      UNCLASSIFIED 



 a new requirement effective January 1, 2007, that staff should meet the GAGAS
 CPE requirement by “taking qualifying structured training for which participants are
 provided with a completion certiﬁcate, documentation of a passing grade, or other
 evidence of satisfactory completion.” Any CPE hours for which there is no evi
 dence of completion would not be counted as CPE hours for meeting the 80-hour
 requirement.


    Recommendation 4: The FDIC Inspector General should require the assis
    tant inspector general for audits to reiterate its existing policy to the audit staff
    regarding maintaining adequate documentation on CPE hours completed.


     FDIC OIG ofﬁcials said that they will reiterate current policy for maintaining
 documentation of CPE hours completed. They will also consider alternatives for
 updating the current policy requirement for individual employees to maintain sup
 porting documentation. FDIC OIG anticipates the corrective action will be com
 pleted by February 29, 2008.



 CONTRACT MONITORING AND OVERSIGHT MANAGEMENT RECORD
 KEEPING
      The OA’s process for monitoring contract audits performed by independent pub
 lic accountants (IPA) generally complied with applicable GAGAS and OA policies
 and procedures. The OA oversight manager reviewed contractor independence; held
 periodic status meetings with the contractor; reviewed and cleared all issues regarding
 deliverables in a timely manner; reviewed contactor audit documentation to ensure
 that adequate testing and ﬁndings were supported by sufﬁcient, competent, and
 relevant evidence in compliance with GAGAS; reviewed the contractor report for
 compliance with GAGAS; and ensured that the report transmittal accurately reﬂect
 ed the extent of FDIC OIG’s assurance over the contractor’s work. The OA over
 sight manager also reviewed and approved contractor billings. However, OA needs
 to store and maintain contract monitoring documentation as required by FDIC OIG
 policies and procedures.

     Although a review of the IPA contract ﬁle disclosed that OA was maintaining
 the contract monitoring documentation, it was not being stored in a single ﬁle, nor
 was it being maintained in one location in OA, as required by FDIC OIG policies
 and procedures.


Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007   13


                                      UNCLASSIFIED 
                                    UNCLASSIFIED 



          The Policies and Procedures Manual, policy 370.1, requires that “throughout the
      term of the contract, the Oversight Manager shall be responsible for maintaining
      a complete record of the status and results of the oversight of the contract. The
      Oversight Manager ﬁle shall be organized and maintained in accordance with the
      Oversight Manager File Checklist.” The intent of the policy was to ensure that the
      contract monitoring documentation was maintained in a single ﬁle or location for
      business continuity purposes. Although oversight documentation was available, it
      was not the practice of the oversight manager to maintain the records in a central ﬁle
      or location. Reemphasizing this responsibility to the oversight manager should help
      to ensure continuity of contractor oversight duties in the event of a disruption to
      normal operations.


         Recommendation 5: The FDIC Inspector General should require the assis
         tant inspector general for audits to reemphasize to the oversight manager the
         importance of maintaining contract monitoring documentation in a single ﬁle
         or location.


          FDIC OIG concurred with the recommendation and said it will reemphasize to
      the contract oversight manager the importance of maintaining oversight ﬁles in a
      single ﬁle or location to help ensure the continuity of oversight duties in the event of
      a disruption to normal operations. FDIC OIG anticipates the corrective action will
      be completed by February 29, 2008.




14   Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007


                                    UNCLASSIFIED 
                                      UNCLASSIFIED




                               RECOMMENDATIONS




 Recommendation 1: The FDIC Inspector General should require the assistant in
   spector general for audits to ensure that the Policies and Procedures Manual con
   tains adequate guidance on (a) reporting and resolving personal impairments, (b)
   identifying the disciplinary mechanism and actions that could be taken if personal
   impairments are not reported, and (c) reporting and resolving external impair
   ments.

 Recommendation 2: The FDIC Inspector General should require the assistant
   inspector general for audits to reiterate the necessity of preparing complete and
   timely working papers in conformance with the Policies and Procedures Manual.
   This reiteration should place special emphasis on required working papers for the
   audit plan; the statement of non-conﬂict of interest; the statement of purpose,
   source, scope, and conclusion; and the required audit checklists and certiﬁcations.

 Recommendation 3: The FDIC Inspector General should require the assistant
   inspector general for audits to emphasize the importance of timeliness of su
   pervisory review of working papers, staff response to supervisory comments on
   working papers, and the clearance of coaching notes. Consideration should be
   given to establishing a speciﬁc measurement for working paper review and for
   clearing coaching notes.

 Recommendation 4: The FDIC Inspector General should require the assistant
   inspector general for audits to reiterate its existing policy to the audit staff regard
   ing maintaining adequate documentation on CPE hours completed.

 Recommendation 5: The FDIC Inspector General should require the assistant
   inspector general for audits to reemphasize to the oversight manager the impor
   tance of maintaining contract monitoring documentation in a single ﬁle or loca
   tion.




Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007   15


                                      UNCLASSIFIED 
                                    UNCLASSIFIED





16   Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007


                                    UNCLASSIFIED 
                                      UNCLASSIFIED





             APPENDIX A - BACKGROUND, SCOPE, AND 

                        METHODOLOGY





 BACKGROUND

     The FDIC OIG is an independent unit that conducts audits, evaluations, inves
 tigations, and other reviews of FDIC’s programs and operations. Congress estab
 lished FDIC to supervise banks, insure deposits, and help maintain a stable and
 sound banking system. The FDIC OIG’s OA is organized into two primary director
 ates: (1) Insurance, Supervision, and Receivership Management Audits and (2) Sys
 tems Management and Security Audits, each of which report directly to the AIGA.


 Scope and Methodology

     DOS OIG tested compliance with the FDIC OIG’s system of quality control,
 primarily by reviewing six randomly selected audit reports of the 24 issued during
 the September 30, 2006, and March 31, 2007, semiannual reporting periods. These
 tests included a review of ﬁve performance audit reports conducted and issued by
 FDIC OIG. Also reviewed were the monitoring activities for an audit performed
 under contract by an IPA. In addition, DOS OIG reviewed recent internal quality
 control reviews performed by FDIC OIG.

     DOS OIG conducted its review at the FDIC OIG’s ofﬁces in Arlington, VA,
 from February through June 2007 in accordance with the President’s Council on In
 tegrity and Efﬁciency and the Executive Council on Integrity and Efﬁciency, Guide for
 Conducting External Quality Control Reviews of the Audit Operations of the Inspector General,
 dated April 2005.




Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007   17


                                      UNCLASSIFIED 
                                        UNCLASSIFIED 




          Audit Reports Reviewed
          Report 

          Number
 Report Date                      Report Title
          06-015   July 20, 2006                   FDIC’s Oversight of Technology Service
                                                   Providers
          06-016      August 10, 2006              Controls Over the Disposal of Sensitive FDIC
                                                   Information by Iron Mountain, Inc.
          06-020 a    September 25, 2006 The FDIC’s Efforts to Comply with OMB
                                         Memorandum M-06-16, Protection of Sensitive
                                         Agency Information
          06-023      September 28, 2006 Examiner Use of Home Mortgage Disclosure Act
                                         Data to Identify Potential Discrimination
          06-026      September 29, 2006 FDIC’s Contract Administration

          07-007      March 30, 2007               Examination Assessment of the Reliability of
                                                   Appraisals and Sufﬁciency of Insurance Coverage
                                                   for Real Estate Lending
      a
          Audit performed by IPA.
      Source: OA reports issued during the Sept. 30, 2006-Mar. 31, 2007, reporting period.




18   Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007


                                        UNCLASSIFIED 
                                      UNCLASSIFIED




                  APPENDIX B - GENERAL COMMENTS




     DOS OIG observed numerous positive audit practices in the FDIC OIG’s audit
 organization. Most importantly, the audit staff showed a high level of professional
 ism and expertise. During discussions, the audit staff displayed a thorough knowl
 edge of the audits reviewed and the audit organization’s policies and procedures.

     DOS OIG also found noteworthy practices and controls instituted to help en
 sure audits were performed in accordance with professional standards. The internal
 quality control review reports DOS OIG reviewed were insightful and contained
 indepth coverage of the organizational element assessed.




Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007   19


                                      UNCLASSIFIED 
                                    UNCLASSIFIED





20   Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007


                                    UNCLASSIFIED 
                                    UNCLASSIFIED 



                                                                                    Appendix C




22   Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007


                                    UNCLASSIFIED 
                                      UNCLASSIFIED 



                                                                               Appendix C




Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007   23


                                      UNCLASSIFIED 
                                    UNCLASSIFIED 



                                                                                    Appendix C




24   Report on the External Quality Control Review of the FDIC’s IG Audit Organization - November 2007


                                    UNCLASSIFIED 
UNCLASSIFIED





 UNCLASSIFIED

